   May 23, 2002




Acquisition

Pricing of Pharmaceutical Items in
the Medical Prime Vendor Program
(D-2002-094)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CDMIA                 Customer Demand Management Information Application
DAPA                  Distribution and Pricing Agreement
DCIS                  Defense Criminal Investigative Service
DSCP                  Defense Supply Center Philadelphia
FSS                   Federal Supply Schedule
PV                    Prime Vendor
            Office of the Inspector General of the Department of Defense
Report No. D-2002-094                                                                May 23, 2002
     (Project No. D2001LD-0092)

                         Pricing of Pharmaceutical Items in the
                            Medical Prime Vendor Program

                                      Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
purchases of medical items should read this report. The report discusses how to better
establish management controls to electronically validate prices charged the DoD for
pharmaceutical items.

Background. The Defense Criminal Investigative Service requested that we evaluate
management controls over the pricing of pharmaceutical items sold through the Defense
Supply Center Philadelphia (DSCP) medical prime vendor program.

The Defense Logistics Agency initiated the medical prime vendor program in 1992.
The Directorate of Medical Materiel, DSCP developed the program and is responsible
for its management and operation. The program is designed to use industry’s
production capability and commercial distribution system to satisfy DoD requirements
for medical items (pharmaceutical items and medical and surgical equipment) instead of
buying stock and holding it in inventory. Pharmaceutical sales through the program
during FY 2001 were approximately $1.3 billion.

Results. DSCP did not have adequate management controls to ensure that customers
were properly charged for pharmaceutical items ordered through its medical prime
vendor program. DSCP recognized the need for such controls in 1993 and reported a
management control weakness in FY 1998, but a computer system upgrade to compare
negotiated prices for individual pharmaceutical items with the prices that prime vendors
charged customers for the items was not implemented until August 2001. However, the
system upgrade was a work in progress that had not been completely tested and, as
implemented, did not provide the required control. Approximately 91 percent of the
items ordered (1,754,127 of 1,924,563) during the 6-month period ending
November 2001 were excluded from the price comparison. As a result, DSCP had
limited assurance that customers were properly charged for pharmaceutical items. For
details of the audit results, see the Finding section of this report. See Appendix A for a
discussion of our review of the management control program.∗




∗
    The management control program includes management self-assessment and reporting processes.
Summary of Recommendations. We recommend that the Commander, DSCP
perform causative research of transactions that are excluded from the price comparison
process; establish procedures to review price differences of transactions that are
included in the price comparison process; and establish milestones for testing and
implementing the price comparison process.

Management Comments. The Director, Logistics Operations, Defense Logistics
Agency agreed that management controls related to prime vendor pricing could be
improved and stated that contracting officers will ensure that customers are properly
charged for pharmaceutical items ordered through the prime vendor program.
Regarding the recommendations, the Director stated that procedures have been
established to perform causative research of transactions that are excluded from the
price comparison process and to review price differences of transactions that are
included in the price comparison process. Additionally, the enhancements to the price
verification process that are currently in progress are estimated to be completed in
September 2002. See the Finding section for additional discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                          ii
Table of Contents

Executive Summary                                                  i


Introduction
     Background                                                    1
     Objectives                                                    2

Finding
     Controls Over Prime Vendor Pricing of Pharmaceutical Items    3

Appendixes
     A. Audit Process
         Scope and Methodology                                     9
         Management Control Program Review                        10
         Prior Coverage                                           10
     B. Report Distribution                                       12

Management Comments
     Defense Logistics Agency                                     15
Background
    The Defense Criminal Investigative Service requested that we evaluate
    management controls over the pricing of pharmaceutical items sold through the
    Defense Supply Center Philadelphia (DSCP) medical prime vendor
    program (PV).

    DSCP Medical PV Program. The Defense Logistics Agency initiated the
    medical PV program in 1992. The Directorate of Medical Materiel, DSCP
    developed the program and is responsible for its management and operation.
    The program is designed to use industry’s production capability and commercial
    distribution system to satisfy DoD requirements for medical items
    (pharmaceutical items and medical and surgical equipment) instead of buying
    stock and holding it in inventory. PV customers include DoD medical treatment
    facilities, the Department of Veterans Affairs, and the Public Health Service.
    Pharmaceutical sales through the program in FY 2001 were approximately
    $1.3 billion.

    Prime Vendors. A PV is a distributor of brand-specific medical supplies.
    DSCP has contracts with 5 PVs that provide 275 organizations with access to
    approximately 22,500 pharmaceutical items. Prices for pharmaceutical items
    are based on distribution and pricing agreements (DAPAs) or Federal Supply
    Schedules (FSSs). As of May 2001, about 500 separate DAPAs and FSSs with
    189 drug manufacturers and suppliers were in place.

            DAPA. A DAPA is an agreement between DSCP and the DAPA
    holder, usually a manufacturer, that establishes the selling price of an item
    provided by a PV. The DAPA is also an authorization from the DAPA holder
    that permits PVs to distribute the DAPA holder’s items.

            FSS. The General Services Administration has overall responsibility for
    the FSS program. The FSS program provides Federal agencies with a
    simplified process for acquiring commonly used supplies and services in varying
    quantities while obtaining the price discounts associated with volume buys. An
    FSS is essentially a type of indefinite-quantity, indefinite-delivery contract.
    Indefinite-quantity, indefinite-delivery contracts are awarded to vendors to
    provide supplies and services at a stated price for a given time. The General
    Services Administration has delegated FSS responsibility for medical supplies to
    the Department of Veterans Affairs.

    Ordering, Inspecting, and Accepting PV Items. When a customer identifies a
    requirement for a pharmaceutical item, it places an order with the PV through
    an electronic data interchange. The PV responds with an order confirmation
    and identifies items that are not available or not included in the program.

    Customers are responsible for inspecting and accepting shipments from the PV.
    The PV must include a packing slip with each shipment that shows the delivery
    order number, date of order, itemized list of items shipped, quantity shipped,
    and delivery price. Customers notify the PV of any discrepancies between the
    items ordered and the items received. Subsequent to acceptance, customers


                                       1
          send a receipt acknowledgment transaction through an electronic data
          interchange to DSCP, showing the total dollar value of the items accepted (value
          received minus the value of discrepant items).

          PV Billing and Payment. PVs submit invoices for items delivered to
          customers through an electronic data interchange to DSCP for payment. DSCP
          matches the total value of items accepted shown on the customer receipt
          acknowledgement with the invoice amount submitted by the PV. If the receipt
          acknowledgement and the invoice match, DSCP authorizes payment to the PV.
          If the amount shown on the customer receipt acknowledgement and the amount
          on the PV invoice do not match, the vendor is paid the lesser amount.


Objectives

          Our objective was to evaluate management controls used to ensure that
          customers were properly charged for pharmaceutical items ordered through the
          DSCP medical PV program. Because of a current DCIS investigation involving
          the medical PV program, we did not test or evaluate the propriety of customer
          billings by PVs. We also reviewed the management control program∗ as it
          related to the audit objective. See Appendix A for a discussion of the audit
          scope and methodology, our review of the management control program, and
          prior audit coverage.




∗
    The management control program includes management self-assessment and reporting processes.

                                                   2
            Controls Over Prime Vendor Pricing of
            Pharmaceutical Items
            DSCP did not have adequate management controls to ensure that
            customers were properly charged for pharmaceutical items ordered
            through its medical PV program. DSCP recognized the need for such
            controls in 1993, but a computer system upgrade to compare negotiated
            prices for individual pharmaceutical items with the prices that PVs
            charged customers for the items was not implemented until August 2001.
            However, the system upgrade was a work in progress that had not been
            completely tested and, because of data integrity problems and the lack of
            procedures to evaluate price discrepancies, did not provide the required
            control. Approximately 91 percent of the items ordered (1,754,127 of
            1,924,563) during the 6-month period ending November 2001 were
            excluded from the price comparison. As a result, DSCP had limited
            assurance that customers were properly charged for pharmaceutical
            items.


Validation of PV Pricing

     Recognition of the Need to Validate PV Pricing. In 1993, DSCP recognized
     the need to upgrade its Customer Demand Management Information Application
     (CDMIA) computer system to provide a control to compare negotiated prices
     for individual pharmaceutical items with the prices that PVs charged customers
     for the items. The CDMIA was originally developed in 1992 to be used as an
     inquiry tool to analyze sales data. However, because of funding, available
     technology, and other constraints, the system upgrade, version 2.1 of the
     CDMIA, was not implemented until August 2001. Before the system upgrade,
     the primary method used to validate PV pricing was to compare the total amount
     of an order on the customer receipt acknowledgement with the total amount on
     the PV invoice submitted for payment.

     CDMIA Version 2.1. CDMIA version 2.1 includes a price comparison process
     that compares negotiated unit prices with the unit prices that PVs charged
     customers. To validate PV prices, the CDMIA runs a process each month to
     compare data in sales transactions provided by the PVs with DSCP catalog data.
     At the completion of the CDMIA price comparison process, a “Price
     Verification Report” is provided to show the results of the process. For DAPA
     items, the DAPA holder inputs the data into the DSCP catalog files. The DSCP
     “User’s Guide for the Distribution and Pricing Agreement Database
     Management System,” July 2000, provides guidance for DAPA holders to enter
     and modify catalog data related to DAPAs. For FSS items, the Department of
     Veterans Affairs provides the catalog data to DSCP. The “Interface Control
     Document Between the Defense Logistics Agency and the Department of
     Veterans Affairs Federal Supply Schedule Automated Tool,” March 2001
     (Draft), provides guidance for FSS data provided to DSCP.


                                        3
    DSCP personnel informed us that the price comparison process included in the
    CDMIA upgrade was a work in progress that was still being tested and that they
    were aware of problems with the integrity of some of the data elements used in
    the price comparison process.


Management Controls

    DSCP did not have adequate management controls to ensure that customers
    were properly charged for pharmaceutical items ordered through its medical PV
    program because of data integrity problems and the lack of procedures to
    evaluate price discrepancies. As a result, DSCP had limited assurance that
    customers were properly charged for pharmaceutical items.

    Data Integrity. Approximately 91 percent of the items ordered (1,754,127 of
    1,924,563) during the 6-month period ending November 2001 were excluded
    from the price comparison because of invalid PV transactions and data integrity
    problems between PV transactions and DSCP catalog files. The following table
    provides an analysis of the 1,924,563 PV transactions.


              Price Verification Report—June Through November 2001

                                                           Transactions     Percent
     Total transactions                                      1,924,563        100

     Transactions excluded during initial edit               (314,530)
     Transactions excluded due to data integrity           (1,439,597)
     Total transactions excluded                             1,754,127         91

     Transactions subject to price comparison                  170,436           9


            Initial Validation Edit. Of the 1,754,127 transactions, 314,530 were
    excluded from the price comparison because the PV transactions contained
    invalid data that did not pass the CDMIA initial validation edit. Reasons why
    the transactions were not validated included that the unit price equaled zero; the
    DAPA number was blank or unknown; or the delivered quantity was null. The
    price verification report provided details of the 314,530 transactions for DSCP
    personnel to perform causative research. As of February 1, 2001, DSCP had
    not performed causative research of the transactions.

            Price Comparison Process. Of the 1,754,127 transactions,
    1,439,597 were excluded from the price comparison process because of data
    differences between PV transactions and DSCP catalog files. The price

                                         4
comparison process compares data in each PV transaction with the unit of sale
(description of the container that the manufacturer or dealer sells to the
customer), national drug code (unique number assigned to pharmaceutical
products by the Food and Drug Administration), and either the DAPA number
(unique number generated by the DAPA Management System at the time a
DAPA application is approved) or the FSS number in the DSCP catalog files.
The 1,439,597 transactions were excluded from the price comparison process
because of differences in any or all of the 3 data elements between the PV
transaction and DSCP catalog files. The price verification report provided
details of the 1,439,597 transactions for DSCP personnel to perform causative
research. As of February 1, 2001, DSCP had not performed causative research
of the transactions.

To identify specific data integrity problems with PV transactions that were
excluded from the price comparison process, we selected a judgmental sample
of 500 (100 transactions from each of the 5 PVs) of the 1,439,597 excluded
transactions. For each of the 500 transactions, we compared data in PV
transactions with DSCP catalog data. Of the transactions reviewed, the unit of
sale in the PV transaction did not match the unit of sale in the DSCP catalog
files for 412 transactions. For the remaining 88 transactions, 60 national drug
codes in the PV transactions were not in the DSCP catalog files and, for 28, it
appeared that the national drug code in the PV transaction did not match the
associated DAPA number in the DSCP catalog files.

Regarding the high percentage of transactions that were excluded from the price
comparison because of differences in the unit of sale, the primary problem was
that the PV used unit of sale codes that were not in DSCP catalog files. For
example, the DSCP catalog files had a unit of sale code of “BT” (bottle), while
the PV used codes such as “EA” (each), “CS” (case), “CT” (carton), or “DZ”
(dozen) for 256 transactions.

        Price Discrepancies. DSCP did not have procedures to evaluate the
propriety of price discrepancies and the tolerance used to flag an item as a
potential price discrepancy was too lenient. Of the 170,436 transactions that
were included in the price comparison, 22,432 exceeded the 10 percent
tolerance established by DSCP and 148,004 were within the tolerance. The
price verification report provided the details for the 22,432 transactions, but
procedures were not in place for causative research to be performed and no
formalized review of the transactions was performed.

Regarding the 148,004 transactions that were within the 10 percent tolerance,
we believe that the tolerance was too lenient and presented a significant risk.
Except for possible rounding differences, the PV price should be the same as the
DSCP catalog price. With FY 2001 sales of $1.3 billion, the cost of accepting
transactions with a price difference that did not exceed the 10 percent tolerance
as valid could be as much as $130 million ($1.3 billion times 10 percent).

DSCP Reviews. DSCP should periodically review excluded transactions and
price discrepancy transactions to validate PV prices. Until the CDMIA price
comparison process is fully implemented, DSCP will require significant
resources to correct the data integrity problems and to investigate price


                                     5
    discrepancies. The resources will be necessary because of the extremely large
    number of transactions that were excluded from the price comparison process
    and exceeded the 10 percent tolerance factor. However, DSCP had not
    identified the resources required to evaluate the price comparison process to
    ensure it worked as intended or established milestones for fully implementing
    the price comparison process.

    Other Government and Commercial Practices. We contacted the Department
    of Veterans Affairs, the Jefferson Health Care System, and the University of
    Pennsylvania Health System to determine whether those organizations validated
    the prices that vendors charged for pharmaceutical items. Each of the
    organizations had controls to validate pharmaceutical prices. The controls
    included a process similar to the DSCP CDMIA price comparison process, as
    well as taking samples of transactions to verify vendors’ prices and requiring
    individual hospitals within an organization to verify vendors’ prices.


Management Comments on the Finding and Audit Response

    Management Comments. DLA concurred with the finding. DLA agreed that
    management controls related to PV pricing could be improved and has
    established procedures for contracting officers to ensure that customers have
    been properly charged for pharmaceutical items ordered through the prime
    vendor program. DLA further stated that the audit noted that many transactions
    reported as not validated represented transactions that were not matched to unit
    of sale data in the Medical Electronic Customer Assistance program. However,
    those mismatches did not represent data integrity problems because
    approximately 70 percent of the transactions were subsequently matched to a
    broader combination of the DAPA number, the FSS number, and the national
    drug code.

    Audit Response. We agree that excluding the unit of sale and matching on the
    broader combination of DAPA number, FSS number, and national drug code
    will increase the number of transactions that are validated. However, we were
    concerned that the exclusion of the unit of sale, an integral part of the pricing
    process, from the matching process in the Medical Electronic Customer
    Assistance program would result in the unit of sale not being validated, which
    could result in DLA not realizing when customers were overcharged. DLA
    officials assured us that there are procedures to validate the unit of sale during
    the pricing verification process.




                                         6
Recommendations and Management Comments
    We recommend that the Commander, Defense Supply Center Philadelphia:

            1. Establish procedures to perform causative research of
    transactions that do not pass the initial validation edit and of transactions
    that are excluded from the price comparison process because of data
    integrity problems.

    Management Comments. DLA concurred, stating that procedures have been
    established to improve the accuracy and integrity of PV transactions. The
    procedures will reduce the number of exclusions at the initial validation edit and
    price comparison stages.

           2. Establish procedures to perform causative research of
    transactions included in the price comparison process that are found to have
    differences between the prime vendor price and the Defense Supply Center
    Philadelphia catalog price.

    Management Comments. DLA concurred, stating that procedures for
    reviewing the results of the price verification process have been established.
    Each month, the contracting office reviews a sample of transactions that are out
    of tolerance to determine the causes of price discrepancies.

            3. Reduce the 10 percent price variation tolerance after the data
    integrity problems are corrected to a factor that will identify all price
    variances, except negligible amounts due to rounding.

    Management Comments. DLA concurred, stating that the DSCP will run a
    one-time price verification report at 0 percent to reflect the maximum amount of
    items with price differences to perform an assessment of the adequacy of price
    verification without unit of sale data. Based on the results of the run, a
    determination as to the need for additional price verification report
    improvements will be made. In the interim, the variation tolerance will be
    adjusted to not more than 5 percent.

           4. Establish interim procedures to periodically review prime vendor
    transactions excluded from the price comparison process that have price
    discrepancies until the price comparison process is fully implemented.

    Management Comments. DLA concurred, stating that procedures currently
    exist to periodically review all transactions. Routine reviews are conducted by
    the DSCP internal review office, and regular monthly reviews are conducted by
    contracting officers.




                                        7
       5. Identify the resources required to correct the problems with the
price comparison process and establish milestones for testing and fully
implementing the process.

 Management Comments. DLA concurred, stating that the continuing effort to
enhance the price verification report does not require the acquisition of
additional equipment, software, or personnel. Additionally, procedures being
implemented to improve the integrity of prime vendor data will significantly
reduce the number of exclusions at all stages of the price verification report and
result in an increase of the number of transactions that get validated. Estimated
completion date is September 2002.




                                    8
Appendix A. Audit Process

Scope and Methodology
    We evaluated management controls used to ensure that customers were properly
    charged for pharmaceutical items ordered through the DSCP medical PV
    program. Because of a current DCIS investigation involving the medical PV
    program, we did not test or evaluate the propriety of customer billings by PVs.
    Our analysis focused on 1,924,563 PV transactions for the 6-month period
    ending November 2001. We interviewed Defense Contract Audit Agency,
    DCIS, DSCP, and Army personnel at Madigan Army Hospital, Seattle,
    Washington, involved in the PV program. We also contacted personnel from
    the Department of Veterans Affairs, the Jefferson Health Care System, and the
    University of Pennsylvania Health System to determine the process they used to
    validate vendor prices for pharmaceutical items. The documents we reviewed
    included PV guidance and briefings, PV price verification reports, PV
    transactions, and DSCP catalog files and were dated from September 1999
    through January 2002.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in the DoD. This report provides coverage of the DoD Contract
    Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data used
    by DSCP to manage the medical PV program. We did not perform a formal
    reliability assessment of the computer-processed data. We determined that the
    data in our judgmental sample of transactions from the CDMIA system
    generally agreed with the DAPA number and the national drug code recorded in
    the DSCP catalog files. We also determined that the problems identified with
    the unit of sale were not system errors. To the extent that we reviewed the data,
    we did not identify any errors that would preclude the use of the data to meet
    the audit objective or that would change the conclusions in this report.

    Universe and Sample. The audit universe consisted of 1,924,563 PV sales
    transactions for the 6-month period ending November 2001. The transactions
    represent individual lines of medical pharmaceutical items that were delivered to
    customers. Out of the 1,924,563 transactions, 1,754,127 were excluded from
    the price comparison process. Of the 1,754,127 transactions, 252,246 were
    excluded in the month of June 2001. We selected a judgmental sample of
    500 from those 252,246 transactions. The sample included 100 transactions
    from each of the 5 PVs. We used the judgmental sample to determine why
    transactions were excluded from the price comparison process.

    Audit Dates and Standards. This audit was performed from March 2001
    through January 2002 in accordance with generally accepted government
    auditing standards.




                                        9
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, the Department of Veterans Affairs, the Jefferson
    Health Care System, and the University of Pennsylvania Health System.
    Further details are available on request.


Management Control Program Review

    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DSCP management controls to ensure that customers were properly
    charged for items ordered through the medical PV program. We reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
    we identified a material management control weakness in the controls used to
    ensure that customers were properly charged for items ordered through the
    medical PV program. The recommendations in this report, if implemented, will
    correct the material weakness. A copy of the report will be provided to the
    senior official responsible for management controls in DSCP.

    Adequacy of Management’s Self-Evaluation. DSCP officials identified PV
    pricing as an assessable unit. DSCP officials reported in FY 1998 the material
    management control weakness identified in our audit. To monitor the weakness,
    DSCP has conducted audits at medical treatment facilities. The audits will
    continue until the CDMIA price comparison process has been completely tested
    and implemented.


Prior Coverage

    During the past 5 years, the Inspector General of the Department of Defense
    (IG DoD) and the Inspector General, Department of Veterans Affairs have
    issued two reports discussing pharmaceutical items. Unrestricted IG DoD
    reports can be accessed over the Internet at
    http://www.dodig.osd.mil/audit/reports.




                                       10
IG DoD
     IG DoD Report No. 98-154, “Acquisition of Medical Items,”
     June 15, 1998


Inspector General, Department of Veterans Affairs
     Inspector General, VA, Report 8R4-E01-092, “Audit of VA’s Pharmaceutical
     Prime Vendor Program,” March 31, 1998




                                     11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
  Director for Acquisition Initiatives
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
  Commander, Defense Supply Center Philadelphia

Non-Defense Federal Organization
Office of Management and Budget




                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         13
Defense Logistics Agency Comments




                  15
16
17
18
19
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Tilghman A. Schraden
Terrance P. Wing
John W. Henry
Paul Hollister
James J. McDermott
David R. Hasz
Brett A. Mansfield
Elizabeth L.N. Shifflett
